State of Louisiana
DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 94005
BATON ROUGE
70804-9005

May 13, 2020

Scott Harris
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re: BP, et.al. v. Mayor and City Council of Baltimore, No. 19-1189

Dear Mr. Harris:
A conflict was recently brought to our attention and Louisiana would like to withdraw
from the multi-state amicus brief filed by Indiana and several States in the above-captioned
matter. We apologize for any inconvenience this may cause.

Sincerely,

Elizabeth Baker Murrill
Solicitor General

